FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INCORPORATED
835 Georgia Avenue, Suite 600
Chattanooga, Tennessee 37402
Assistant Federal Defenders:
Myrlene R. Marsa
Gianna Maio
Erin Rust
Presita West
Joe Austin
J. Damon Burk

Phone (423) 756-4349
Fax (423) 756-4345

BY U.S. MAIL AND ELECTRONIC FILING
December 11, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Morris v. United States, No. 20-6461

Dear Mr. Harris:
This letter is to update the Court regarding a development relevant to Mr. Morris’s pending
petition for certiorari. Mr. Morris here asks the Court to either grant review in his case or hold his
petition pending the Court’s review in another case, Yerkes v. United States. Yerkes is a direct
appeal addressing the same broad issue presented here—whether a state statute that defines
burglary in a way that is broader than how the majority of states and the common law defined
burglary in 1986 qualifies as “generic burglary” under the Armed Career Criminal Act, 18 U.S.C.
§ 924(e). A decision in favor of the petitioner in Yerkes would require remand in Mr. Morris’s case
as well.
At the time the petition for certiorari was filed in this case, Mr. Yerkes had not yet filed his
petition. It has since been filed and is docketed as case number 20-6450.
Mr. Morris respectfully requests that this letter be circulated to the Court ahead of its
conference in this case which has not yet been scheduled.

Sincerely,
FEDERAL DEFENDER SERVICES
OF EASTERN TENNESSEE, INC.
By:

cc:

Jeffrey B. Wall, Esq. (by U.S. Mail)

s/ Erin Rust
Erin Rust
Assistant Federal Defender

